FEC -- Semiannual Report:  Executive Summary (3/97)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending March 31, 1997
If you require the entire printed version of this report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General Act of 1978, as amended, and includes a summary of the Office of Inspector General's activities for the period October 1, 1996 through March 31, 1997.
One audit was completed and released during this reporting period.  The OIG completed an audit of the accounts payable balance as of September 30, 1995 and released the report in March.  The objectives of the audit were to ensure that:  1) adequate internal controls were in place and operating effectively; 2) accounts payable and other accrued liabilities represent authorized obligations; 3) accounts payable and related budgetary accounts were properly valued and recorded; and 4) accounts payable include all significant current obligations.  The accounts payable audit resulted in four audit suggestions.  The OIG believes the adoption of the four suggestions will provide a more accurate reflection of the Commission's accounts payable balance at fiscal year end and also improve internal controls.
A synopsis of the accounts payable audit is contained in the Audit section of this report.